OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
PROGRAMS IN BURKINA FASO

AUDIT REPORT NO. M-000-10-006-P
SEPTEMBER 30, 2010




WASHINGTON, DC
          Office of Inspector General
          for the Millennium Challenge Corporation



September 30, 2010

The Honorable Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Audit of the Millennium
Challenge Corporation’s Programs in Burkina Faso. In finalizing the report, we considered your
written comments on our draft report and included those comments in their entirety in
Appendix II of this report.

The report contains three recommendations to strengthen the Millennium Challenge
Corporation’s process for managing Burkina Faso’s compact program and future threshold and
compact programs. We consider that management decisions have been reached on
Recommendations 1, 2, and 3. Final action will not be reached until MCC provides additional
documentation.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,



Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ...................................................................................................... .1

Audit Findings ................................................................................................................ .4

Are the Millennium Challenge Corporation’s BRIGHT I and II schools projects
achieving their intended results?...................................................................................... .4

          The Government Did Not Maintain BRIGHT Schools ........................................... 4

          Indicators and Targets Lacked Precision .............................................................. 6

Are 609(g) funds being used for their intended purposes? ............................................... 8

          609(g) Funding Was Not Used Effectively ............................................................ 9

Other Matters .................................................................................................................. 10

Evaluation of Management Comments ....................................................................... 11

Appendix I—Scope and Methodology......................................................................... 13

Appendix II—Management Comments........................................................................ 15

Appendix III—BRIGHT II Indicators Requiring Revision ........................................... 18
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) provided $41.7 million to the Government
of Burkina Faso for school projects through two types of grants—a threshold agreement
and a compact. 1 MCC signed a threshold agreement with the Government of Burkina
Faso in July 2005 for $12.9 million to fund the Burkinabe Response to Improve Girls’
Chances to Succeed (BRIGHT I) Project. In July 2008, MCC awarded a compact that
included $28.8 million for BRIGHT II, an extension of the threshold program. The goal of
both projects was to increase the girls’ primary education completion rate by building
schools in provinces where the rates were lowest and by offering incentives for girls to
attend the schools.       During these projects, the U.S. Agency for International
Development (USAID), on behalf of MCC, built or will build 132 schools with classrooms
for Grades 1–3 and 4-6, girl-friendly latrines, and teacher accommodations. The
threshold program ended in September 2008, and the funds awarded were fully
expended. The compact program will end in September 2012; as of March 31, 2010,
MCC had disbursed $28.8 million to USAID for the compact program, and USAID had
disbursed $2.4 million to the implementing partners.

MCC awarded a $9.4 million in 609(g) funding and $16.1 million in compact
implementation funding (CIF) to the Government of Burkina Faso under Section 609(g)
of the Millennium Challenge Act of 2003. The act authorizes MCC to provide funding to
countries that are eligible for compacts to help support the development and
implementation of a compact proposal. As of March 31, 2010, $4.0 million in 609(g)
funding and $8.2 million in CIF had been disbursed. 2

The objectives of this audit were to determine whether (1) MCC’s BRIGHT I and II
schools projects in Burkina Faso were achieving their intended results, and (2) 609(g)
and compact implementation funds were being used for its intended purposes.

Although the BRIGHT I project achieved positive results, it did not accomplish the
Government of Burkina Faso’s overall goal of increasing the girls’ primary education
completion rate because the project built primary schools with only enough classrooms
for three grades (Grades 1–3) instead of constructing schools with six grades.
Nevertheless, MCC’s BRIGHT II project may achieve its intended results by Year 3 of
the project, when classrooms for Grades 4–6 will be built (page 4).

As for the second objective, the Office of Inspector General (OIG) found that 609(g)
funding and CIF were being used for their intended purposes. However, OIG believes
that MCC did not effectively use the 609(g) funding since CIF was being used at the
same time for similar activities (page 8).



1
  Threshold agreements are grants awarded to countries that are close to passing the criteria for
a compact and are committed to improving policy performance. Compacts are large, five-year
grants awarded to countries that pass MCC’s eligibility criteria.
2
  The 609(g) funding is funded through a 609(g) agreement and not part of the compact
agreement amount; CIF is part of the compact agreement amount, and its uses are outlined in the
compact agreement.


                                                                                               1
Schools Projects
OIG found that MCC’s BRIGHT I schools project did not increase the girls’ primary
education completion rate, the goal of the threshold program. However, MCC measured
the success of the project by changes in enrollment and attendance in the targeted
areas. 3 By the end of the project, the girls’ enrollment rate exceeded the project target
by 27 percent, and girls’ attendance rate exceeded the project target by 10 percent.

Although the Bright II schools project was
on track to achieve its intended results, the
audit disclosed concerns. The government
was not maintaining the schools (page 4),
and the indicators and targets used to
monitor the project lacked needed precision
(page 6). The audit found some schools in
disrepair, and the Government of Burkina
Faso’s ability to fund repairs to the BRIGHT
schools after the compact ends was
uncertain (page 4).        In addition, the
indicators and targets used to monitor the
BRIGHT II schools project included some
that were poorly defined, missing, This BRIGHT I school was built during the
unrealistic, or set according to misleading threshold program. (Photo by the Office of
                                              Inspector General, April 2010)
baselines (page 6).

609(g) and Compact Implementation Funds
Grant funds provided under Section 609(g) were not used effectively. Grant-funded
activities were still in progress 1 year after the compact with Burkina Faso had entered
into force in July 2008. Not concluding these activities on time may delay project
implementation, which could prevent the completion of the projects by the end of the
compact (page 9).

The report includes three recommendations:

1. Require the Government of Burkina Faso to develop and implement an action plan to
   fund repairs in the BRIGHT schools that the communities are unable to perform
   (page 6).

2. Work with USAID to revise the indicators, targets, and baselines listed in Appendix III
   to ensure more effective monitoring of the BRIGHT II schools project (page 8).

3. Implement a policy for monitoring and evaluation when a U.S. Government entity
   administers a compact program (page 8).



3
 The ten provinces selected for the BRIGHT I schools project were Banwa, Gnagna, Komandjari,
Namentenga, Oudalan, Sanmentenga, Seno, Soum, Tapoa, and Yagha.


                                                                                          2
Detailed findings follow. Appendix I contains a discussion of the audit’s scope and
methodology; Appendix II presents MCC’s comments. MCC agreed with one and
disagreed with two recommendations. Management decisions have been reached on all
three recommendations.




                                                                                  3
AUDIT FINDINGS
Are the Millennium Challenge Corporation’s BRIGHT I and II
schools projects achieving their intended results?
The Office of Inspector General (OIG) found that the Millennium Challenge Corporation’s
(MCC’s) Burkinabe Response to Improve Girls’ Chances to Succeed (BRIGHT I) schools
project, a threshold program, did not achieve its intended results.

The BRIGHT I project as designed could not contribute to the Government of Burkina
Faso’s overall goal of increasing the girls’ primary completion rate because MCC built
primary schools with only enough classrooms for Grades 1–3 instead of constructing
schools with six grades. MCC recognized from the outset that the project could not
boost the girls’ primary education completion rate. Furthermore, MCC officials indicated
that MCC did not initially intend to build classrooms for Grades 4-6. Therefore, when
Burkina Faso became eligible for a compact, MCC designed the compact to address the
shortfalls of the threshold program.

An agreement between the U.S. Agency for International Development (USAID) and the
Government of Burkina Faso that was approved by MCC stated that the project results
would be measured by whether a girls’ enrollment rate of 40.1 percent could be
achieved and whether a minimum rate of 85 percent for girls’ attendance could be
achieved by the end of the project in the target areas. The BRIGHT I schools project
exceeded those targets, achieving an enrollment rate of 50.1 percent and an attendance
rate of 93.5 percent by the end of the threshold program.

OIG found that the MCC’s BRIGHT II schools project was on track to achieve its goal: a
girls’ primary school completion rate of 52 percent by Year 3 of the compact. BRIGHT II
construction, which will add classrooms for Grades 4–6 to the existing schools, is under
way. For the school year ending in June 2010, the hallways of the BRIGHT I schools
were turned into temporary classrooms for Grades 4 and 5.

Notwithstanding these results, the audit disclosed factors that may impede the continued
progress of the BRIGHT schools: the lack of maintenance of the BRIGHT schools, the
need for improved monitoring of the BRIGHT schools, the uncertain future of BRIGHT
school graduates, and the under- and overuse of the schools. These issues are
discussed below.

The Government Did Not
Maintain BRIGHT Schools
A lack of maintenance of the BRIGHT school structures may impede the sustainability of
the schools after the compact ends. Although MCC required the Government of Burkina
Faso to provide evidence that it could maintain the BRIGHT schools, the government’s
ability to maintain the schools is unclear. Three out of the ten schools that OIG visited
required some type of maintenance. In one school the steps needed to be repaired; in
another, large holes marred a classroom floor (see photo); and the third school had a
well that had been broken for a year.


                                                                                       4
When asked who was responsible for
maintaining the schools, interviewees gave
several answers.      An implementing partner
official stated that since the implementing
partner is constructing BRIGHT II schools, it will
repair anything that is broken in the schools,
provided materials are left over from
construction. A representative from the Ministry
of Basic Education and Literacy (MEBA)
explained that the Government of Burkina Faso
is responsible for maintenance of the schools
but during construction it depends on the
implementing partners to maintain the schools.
She explained that most municipalities lack the
funds and the capacity to perform maintenance.       Holes in the floor of a BRIGHT I
For this reason, she requested that the              classroom require maintenance. (Photo
implementing partners repair the schools that        by Office of Inspector General, April
                                                     2010)
need to be repaired during the implementation
phase.

The program implementation agreement establishes responsibility for repairs. It states
that prior to the initial disbursement of program funding, the Government of Burkina Faso
should provide an annual budget allocation to MEBA for teacher salaries and other
recurring costs for the 132 existing BRIGHT schools (including classrooms funded under
the BRIGHT I program). MEBA provided MCC a copy of the relevant pages of the 2008-
2009 enacted MEBA budget, showing the allocation.

However, the program implementation agreement did not require the government to
provide evidence that it could maintain the schools after the project ends in September
2012, nor did the government provide evidence that it could maintain the schools already
built when it submitted documentation required for compact start-up. Instead, the
government provided MCC an explanation letter showing evidence of the teachers it
planned to employ up to Grade 4, the name of the BRIGHT II schools project
coordinator, and the name of the technical secretary. The letter included a budget listing
expected expenses from 2008 to 2011 for teacher salaries, school equipment, school
supplies, and textbooks. MCC accepted the letter from the Government of Burkina Faso
and did not ask for additional information.

Sustainability of the BRIGHT schools is crucial for the continuation of the children’s
education. If school infrastructure continues to deteriorate, parents may not deem it safe
or productive for their children to attend classes, and the attendance rate might drop in
the BRIGHT schools. Decreased attendance could in turn affect the completion rate of
both girls and boys in the BRIGHT schools.

   Recommendation 1.        We recommend that the Millennium Challenge
   Corporation’s Vice President of Compact Operations require the Government
   of Burkina Faso to develop and implement an action plan to fund repairs in the
   BRIGHT schools.




                                                                                             5
Indicators and Targets Lacked
Precision
MCC did not have indicators and targets with the precision needed to monitor the
BRIGHT II schools project effectively. OIG’s review of the indicators and targets in the
monitoring and evaluation plan and indicator tracking table revealed several problems,
which are summarized below. See Appendix III for further detail.

•   One indicator was not clearly defined (Appendix III, Table A). The definition of the
    girls’ primary completion rate indicator states “refer to Ministry of Basic Education
    and Literacy’s definition” instead of explaining how the indicator is calculated.

•   Annual targets were not included for Years 1 and 2 of the project (Appendix III, Table
    B). The students who entered the first grade in 2005–6 will enter the sixth grade in
    the fall of 2010, which is the beginning of the second year of the BRIGHT II project.
    Therefore, annual targets are needed for Year 2 and subsequent years.

                  BRIGHT I and II Grades and Related School Years
                    Grade                School Year             Project Year
                                                            BRIGHT I     BRIGHT II
                      1                    2005-6              1
                      2                    2006-7              2
                      3                    2007-8              3
                      4                    2008-9                           N/A
                      5                    2009-10                           1
                      6                    2010-11                           2
                                           2011-12                           3
          N/A – No construction took place during this period. Instead, temporary
          classrooms were built for the fourth grade during the compact development
          phase.

•   End-of-project targets for some indicators in the indicator tracking table did not match
    one another or reflect school capacity (Appendix III, Table C).

    –   The target for the number of girls enrolled in the MCC/USAID-supported BRIGHT
        schools indicator is 19,800 and the target for the number of boys enrolled in the
        MCC/USAID-supported BRIGHT schools indicator is 9,900. The sum of the two
        targets equals 29,700 boys and girls enrolled in BRIGHT schools by the end of
        the project. However, the target for the number of students enrolled in the
        MCC/USAID-supported BRIGHT schools indicator (both girls and boys) is
        39,600. Therefore, 9,900 students are not accounted for in the targets for the
        gender-disaggregated data.

    –   The end-of-project target for the additional primary school female students
        enrolled in MCC/USAID-supported educational facilities indicator is 9,900.
        However, this target exceeds the maximum number of students that can be
        enrolled in the first grade, which is 6,600 students. A target this high also
        suggests that no boys will be enrolled in BRIGHT schools by the end of the
        project.

•   The target for one indicator is too low (Appendix III, Table D). MCC’s indicator
    tracking table shows the target for number of boys enrolled in the MCC/USAID-


                                                                                          6
    supported BRIGHT schools as 9,900 by Year 3 of the project. However, 9,850 boys
    were enrolled in the BRIGHT schools in the 2009–10 school year.
                                                Students Enrolled in First Grade in
•   Using 2008–9 data as baselines
                                                  BRIGHT Schools by School Year
    for the indicators and not recording
    the results from the beginning of                                Number of Students
    the BRIGHT I schools project does           School Year
                                                                    Enrolled in First Grade
    not show the extent of changes in
    some indicators. As shown in the            2005 – 2006                  5,015
    table at right, total enrollment in         2006 – 2007                  7,190
    the first grade in BRIGHT schools           2007 – 2008                  6,768
    has declined each year since the            2008 – 2009                  5,160
    2007–8 school year. The largest             2009 – 2010                  4,770
    decline in enrollment took place in
                                            Source: Plan International, unaudited
    the 2008–9 school year during the
    transition from the threshold program to the compact program.

MCC’s Policy for Monitoring and Evaluation of Compacts and Threshold Programs,
approved on May 12, 2009, provides guidance for the monitoring and evaluation of
compact programs. According to Section 5.1.6 of the policy, the compact’s monitoring
and evaluation (M&E) indicators should be direct, unambiguous, adequate, practical,
and useful. In addition, Section 5.1.7 of the policy states: “Indicators in the M&E Plan
must include annual targets whenever possible and appropriate.”               Furthermore,
Section 5.3 of the policy states, “No changes to indicators, baselines or targets may be
made in the [indicator tracking table] until the changes have been approved by the M&E
plan.”

BRIGHT II marks the first time that MCC has included an expanded version of the
threshold program in a compact. It is also the first time that USAID has been considered
the accountable entity in a compact. 4 Therefore, MCC’s M&E policy did not require
USAID to report on the threshold results during compact implementation. Furthermore,
since the primary schools were built in two phases—BRIGHT I and BRIGHT II—MCC
views each phase as a separate project. This viewpoint further explains why indicators,
baselines, and targets do not reflect annual progress since the beginning of
the threshold program.

In addition, the change in reporting requirements from threshold to compact program for
USAID contributed to the monitoring and evaluation problems, as stated above, between
MCC and USAID. MCC established a policy for monitoring and evaluation of the
threshold program that allowed USAID to provide all information about the project—
definitions, targets, and results for each indicator—in one quarterly report. However,
since MCC does not have a formal monitoring and evaluation policy in the compact for
U.S. Government entities administering a compact program, MCC required USAID to
comply with a reporting method similar to that required for Millennium Challenge
Accounts. This method includes providing the definitions for the indicators in one report
and the results and targets for the indicators in another report. According to a USAID
official, monitoring and evaluation of the BRIGHT II project was running smoothly until
MCC changed the quarterly reporting process. Adapting to the new and more complex

4
 MCC's approach was to use USAID as the accountable entity instead of the Millennium
Challenge Account-Burkina Faso to implement the BRIGHT II schools project under the compact.


                                                                                              7
process required several training sessions and numerous revisions. Furthermore,
USAID had a difficult time providing a report that was acceptable to MCC. USAID did
not have any problems reporting on implementing the threshold program.

As a result of not having more precise, complete, internally consistent, and realistic
indicators and targets, MCC does not have the information needed to oversee the
program. This lack of useful information prevents MCC from identifying negative trends
that could be addressed by the implementers before the project ends. In addition,
MCC’s senior management does not have a complete view of the BRIGHT schools
projects’ capacity to enroll and retain students and to graduate the targeted percentage
of girls from the BRIGHT schools by the end of BRIGHT II.

       Recommendation 2. We recommend that the Millennium Challenge
       Corporation’s Vice President for Compact Operations work with the U.S.
       Agency for International Development to revise the indicators, targets,
       and baselines listed in Appendix III to ensure more effective monitoring of
       the BRIGHT schools project.

       Recommendation 3. We recommend that the Millennium Challenge
       Corporation’s Vice President for Compact Operations establish and
       implement a policy for monitoring and evaluation when a U.S.
       Government entity administers a compact program.

Are 609(g) funds being used for their intended purposes?
OIG found that 609(g) funding and compact implementation funding (CIF) provided
under the authority of Section 609(g) were being used for their intended purposes.
However, OIG believes that MCC did not use grant money effectively; MCC used it for
activities that CIF could have covered. Although there is no time requirement in which a
compact country should use 609(g) funding, its purpose is to assist eligible countries to
develop and implement a compact. The activities funded by the 609(g) funding were still
in progress 1 year after Burkina Faso’s compact entered into force. 5 MCA-Burkina Faso
was still conducting feasibility studies and environmental assessments for the roads
project at the time of the audit. Not keeping these activities on schedule could delay
project implementation and could prevent the completion of the projects by the end of
the compact.

The 609(g) funding was intended to facilitate the development and implementation of a
compact. As of March 24, 2010, MCC had disbursed $4.0 million of the $9.4 million
grant awarded to Burkina Faso. MCA-Burkina Faso used the 609(g) funding for
administrative costs, land tenure activities, final road studies, and monitoring and
evaluation. As of April 30, 2010, MCA-Burkina Faso had spent $5.2 million of its
$16.1 million CIF award. Of that amount, $4.6 million was spent on administrative costs,
such as office equipment. Testing of transactions and related contracts for the use of
609(g) funding and CIF showed that MCA-Burkina Faso and MCC used the funds for
their intended purposes and within the established timeframe.



5
 A compact enters into force when the assisted government has fulfilled domestic requirements
or conditions precedent outlined in the compact and begins compact implementation.


                                                                                           8
609(g) Funding Was Not Used
Effectively
MCC used 609(g) funding to pay for studies to identify project constraints prior to
compact signing. However, it continued to use 609(g) funding to conduct feasibility
studies and environmental assessments for the roads project long after compact
implementation. As of March 31, 2010, MCA-Burkina Faso had spent $4.0 million of its
609(g) funding for administrative and land tenure activities. The remaining $5 million
was obligated for feasibility studies which either began in 2009 or were starting at the
time of our fieldwork.

Section 6.2.1 of MCC’s Policies and Procedures on 609(g) Financial Management
discusses appropriate uses of 609(g) funding: 6

        Ensuring High Quality MCA Programs. MCC uses 609(g) funding to
        address country capacity constraints for compact development, including:
        Ensuring that a country will develop projects that justify MCC investment.
        Putting successful implementation mechanisms in place such as baseline
        surveys, consultations, technical assistance to procure fiscal and/or
        procurement agents, fees for fiscal and/or procurement agents, and the
        country’s local counsel fees associated with review and finalization of the
        Compact and related agreements.

        Temporary and Extraordinary Remediation Measures. Uses of 609(g)
        funds consist of (i) the Accountable Entity team’s payroll, (ii) technical
        assistance to carry out the consultative process, and (iii) any other
        category of monetary support to an eligible country as determined from
        time to time by MCC’s CEO to be critical to the completion of the
        Compact development process.

MCC used 609(g) funds for feasibility studies because MCC signed the compact with
Burkina Faso before the completion of 609(g)-funded activities. The feasibility studies
enable MCC and MCA-Burkina Faso to minimize investment risk and obtain as much
information as possible about the project’s scope, activities, and costs. Not completing
feasibility studies before compact signing may result in MCA-Burkina Faso’s changing
the scope of some projects or increasing a project’s cost during compact
implementation. In addition, delays in project implementation may result, which could
prevent project completion by the end of the compact.

We are not making a recommendation because MCC developed a compact
development process in December 2009 that addresses concerns about when countries
should conduct feasibility studies. The new process states that these studies should be
conducted before compact signing, during the project development and appraisal phase.




6
 As described under “Ensuring High Quality MCA Programs,” payments for items such as rent and
equipment for the country’s MCA core team are generally not eligible for 609(g) funding prior to
compact signing.


                                                                                                   9
Other Matters
OIG identified other matters to be brought to MCC management’s attention. Although
MCC cannot implement changes to the current project, MCC might consider these
matters when implementing future education projects in threshold and compact-eligible
countries. These matters include the uncertainty of the future of BRIGHT school
graduates and the under- and overuse of the BRIGHT schools.

Future of BRIGHT School Graduates Is Not Clear – Although the BRIGHT II schools
project will normalize the BRIGHT I schools and provide the basic education, it is not
clear what the future of the BRIGHT schools graduates will hold. In June 2011, the first
students enrolled in the BRIGHT I schools project will complete primary school. In many
areas where the BRIGHT I and II schools were built, no secondary schools are nearby.
Parents have asked the BRIGHT II implementers whether a secondary school will be
built. Furthermore, although building secondary schools near the BRIGHT provinces
was outside the scope of the compact, secondary schools would provide a better
educated workforce. According to an MCC official, there were not enough resources in
the compact to allow the building of secondary schools.

BRIGHT Schools Are Under- and Overused – Although each school was designed
and built to educate 50 students per classroom, both underuse and overuse have
occurred. Of the 10 schools OIG visited, the number of students enrolled in each class
ranged from 3 students to 81 students. 7 According to a USAID official, this may have
been caused by the nomadic nature of the people in some areas. As a result, MCC’s
investment may not be maximized in the communities where schools are located.




7
    Each school that OIG visited offered instruction to students in four or five grades.


                                                                                           10
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments on our draft
report that are included in their entirety in Appendix II of this report. In its comments,
MCC agreed with one recommendation and disagreed with two recommendations.
In response to Recommendation 1, MCC agrees that school maintenance is a key factor
to success of the BRIGHT schools. However, MCC disagrees with the recommendation
to require the Government of Burkina Faso to develop and implement an action plan to
fund repairs in BRIGHT schools. Instead, USAID’s BRIGHT project implementation
consortium has been working actively on a school maintenance program. The
consortium has developed tripartite agreements that are to be signed by the local district
governments, BRIGHT school communities (including parent and teacher associations),
and consortium partners to ensure school maintenance repairs are made. In addition,
the BRIGHT project implementation consortium is preparing a community school
maintenance manual and organizing training workshops for school directors, local
government officials, and parent and teacher association members. OIG agrees with
MCC’s proposed corrective action since it appears it will address the problem identified
in the finding. OIG considers that a management decision has been reached. However,
final action will not be reached until MCC provides evidence of the tripartite agreements
and school maintenance manual.

MCC agrees with Recommendation 2 to revise the targets and indicators in Appendix III
of this report in order to ensure effective monitoring of the BRIGHT II schools project.
Specifically, MCC staff will work with USAID and project implementers to revise the data
by July 2011. OIG believes these changes should be made sooner, if possible, to
ensure effective monitoring of the program. OIG considers that a management decision
has been reached, but final action will not be reached until MCC provides documentation
showing that the targets and indicators have been revised.

MCC disagrees with Recommendation 3 that MCC should develop and implement a
policy for monitoring and evaluation when a U.S. Government entity administers a
compact program. Instead, MCC believes it should provide clarification and guidance
through an appropriate instrument—an amendment or a letter agreement supplementing
the interagency agreement. The Vice President of Policy and Evaluation, working
closely with USAID, could use these instruments to develop, more broadly, subsidiary or
clarifying guidance to the M&E policy as it relates to U. S. government agencies as
needed. OIG’s concern is that, absent a policy, a process will not be in place to ensure
that this problem does not recur. However, as stated by MCC, these instruments should
address the problem identified in our finding. Thus OIG considers that a management
decision has been reached. Final action will be reached when MCC provides evidence
that it has provided USAID with clarifications and guidance on the monitoring and
evaluation policy for the BRIGHT II schools project.

MCC provided additional comments on what it considered inaccuracies in the audit
report. However, these comments do not accord with what OIG found during fieldwork.
OIG disagrees with some of MCC’s comments and offers the following clarifications.


                                                                                       11
OIG disagrees with MCC’s comment regarding the sentence on page 2, first sentence
under the heading “Schools Project.” The sentence states, “The Office of Inspector
General (OIG) found that MCC’s BRIGHT I schools project did not achieve its intended
results” is somewhat confusing given that the second paragraph establishes that, in fact,
BRIGHT I exceeded its project targets. OIG believes that MCC misunderstood this
sentence since the following sentence in that paragraph states that “The goal of the
threshold program in Burkina Faso was to increase the girls’ primary education
completion rate.” Furthermore, OIG modified the third sentence in the paragraph to
further clarify its position. Instead of stating, “Project performance was to be measured
by changes in enrollment and attendance in the targeted areas,” OIG modified the
sentence to state, “However, MCC measured the success of the project by changes in
enrollment and attendance in the targeted areas.”

OIG disagrees with MCC regarding its comments on page 4, first sentence under the
heading that begins “Are the Millennium Challenge Corporation’s . . . .” MCC believes
the sentence is confusing to readers since OIG points out that the BRIGHT I schools
project met and exceeded its own targets for success. OIG disagrees with MCC’s
comment since at the time MCC designed and implemented the BRIGHT I schools
project, which consisted of constructing schools with Grades 1–3, it had not considered
the BRIGHT II schools project. Therefore, this approach would not contribute to Burkina
Faso’s overall goal of increasing girls’ primary completion rate. This measure is also
one of the indicators that MCC uses to determine whether a country is eligible for a
compact. The overall goal of the threshold program is to increase 1 of 17 indicators that
MCC uses to determine whether a country is eligible for a compact. Therefore, OIG did
not revise the sentence as requested by MCC.

OIG disagrees with MCC regarding its comment about the sentence on page 4: “Yet the
BRIGHT I project as designed could not contribute to the Government of Burkina Faso’s
overall goal of increasing the girls’ primary completion rate because the project built
primary schools with only enough classrooms for Grades 1–3 instead of constructing
schools with six grades.” MCC states that, given the nature of the girls’ primary
education completion rate indicator used by MCC, the project by itself could not raise the
indicator score above the median in a 2- to 3-year period. However, OIG believes that if
MCC had built schools with six grades instead of three under the BRIGHT I project,
MCC may have contributed to the overall goal of the project since children in Burkina
Faso complete primary school when they graduate from the sixth grade. Furthermore,
MCC did not intend to build the remaining three classrooms at the time it designed and
implemented the BRIGHT I project.

OIG disagrees that an additional paragraph should be added on page 5, just above the
last paragraph beginning with “Sustainability of the BRIGHT schools…” Specifically,
OIG agrees with MCC that the interagency agreement between MCC and USAID states
that USAID will provide training allowing communities to address small maintenance
issues themselves and to bring more complicated repairs to the attention of the local
education bureaus. However, OIG found that USAID and the implementing partners
began addressing this part of the agreement only after OIG brought the problem to their
attention. Therefore, OIG will not add additional language to the report.




                                                                                       12
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Office of Inspector General (OIG) conducted this performance audit of the
Millennium Challenge Corporation’s programs in Burkina Faso in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit
objectives. We believe that the evidence obtained provides such a basis.

We conducted an audit of the threshold and compact programs in Burkina Faso. The
audit included a review of the Millennium Challenge Corporation (MCC) education
project initiated under the threshold program that was later expanded under a compact
program. Both threshold and compact programs focused on girls’ primary school
completion rate. In addition, MCC used the U.S. Agency for International Development
(USAID) to implement both projects, Burkinabe Response to Improve Girls’ Chances to
Succeed (BRIGHT) I and BRIGHT II. While USAID typically implements threshold
programs for MCC, this was the first time that USAID had implemented a portion of a
compact. We also reviewed MCC’s use of $9.4 million in 609(g) funding and
$16.1 million in compact implementation funding (CIF) to determine whether the funds
were used for their intended purposes. The majority of these funds facilitated the
agricultural, land tenure, and roads projects in the compact; only $3 million in CIF was
used for the BRIGHT II schools project.

We conducted this audit at MCC headquarters in Washington, D.C., from March 25 to
June 30, 2010. In Washington, D.C., we met with MCC, USAID, and others
knowledgeable about the country or project. Our fieldwork was conducted from April 21
through May 7, 2010, in Burkina Faso, where we met with officials from the Ministry of
Basic Education and Literacy and staff of the Millennium Challenge Account-Burkina
Faso, MCC-Burkina Faso, USAID, and four implementing partners.

Methodology

To answer the first objective, we established audit steps to determine the following:

•   How MCC measures the success of the BRIGHT I and II schools projects.

•   Whether MCC established proper baselines, indicators, and targets for monitoring
    and oversight of the project in accordance with its policies.

•   Whether the BRIGHT I and II schools projects will be sustainable.

We performed the following activities:

•   Interviewed representatives of MCC, USAID, implementing partners, and others to
    gain an understanding of the overall objectives, management, and progress of the
    BRIGHT I and II projects.



                                                                                        13
                                                                             APPENDIX I


•   Examined supporting documentation for the BRIGHT schools projects, such as the
    monitoring and evaluation plan, indicator tracking tables, and teachers’ attendance
    books, to verify that monitoring was occurring and being documented and that
    intended results were being achieved.

•   Interviewed beneficiaries on site visits to 10 of the 132 schools to determine how the
    MCC-funded projects had affected beneficiaries’ lives.             We selected sites
    judgmentally.

•   Determined the potential impact of achieving or not achieving milestones and
    targets.

To answer the second objective, we established audit steps to determine whether grant
money and CIF were used for their intended purposes.

We performed the following activities:

•   Interviewed MCC and MCA-Burkina Faso officials to determine how they used each
    type of funding to facilitate the objectives of their projects.

•   Reviewed MCC’s policies and procedures governing 609(g) funding and CIF
    agreements between MCC and the Government of Burkina Faso for each type of
    funding.

•   Judgmentally selected grant and CIF transactions from a financial report and
    reviewed the corresponding contract to determine whether the funds were used for
    their intended purposes.

OIG identified and assessed internal controls.     In addition, we reviewed prior audit
reports and considered relevant findings.




                                                                                       14
                                                                               APPENDIX II



MANAGEMENT COMMENTS



Date: September 23, 2010

To: Mr. Alvin Brown, Assistant Inspector General,
Millennium Challenge Corporation

From: Mr. Patrick Fine, Vice President for Compact Operations,
Millennium Challenge Corporation

Subject: Open Audit Recommendations - Audit of the Millennium Challenge Corporation’s
Programs in Burkina Faso, report number M-000-10-00X-P

Dear Mr. Brown:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium Challenge
Corporation’s Programs in Burkina Faso.”

MCC’s specific responses to the recommendations in the Report are detailed below.

Recommendation 1: Require the Government of Burkina Faso to develop and implement
an action plan to fund repairs in the BRIGHT schools that the communities are unable to
perform.

MCC agrees that school maintenance is a key factor to the success of the BRIGHT schools.
In furtherance of the Interagency Agreement 1 , USAID’s BRIGHT project implementation
consortium has been working actively on a school maintenance program. In this regard, the
consortium has elaborated tripartite agreements that are to be signed by the local district
governments, BRIGHT school communities (including parent and teacher associations) and
consortium partners. The terms of each agreement obligate the applicable local government
to take full ownership of the BRIGHT schools and to give them priority with regard to repairs
and maintenance. The agreements also require community leaders to be responsible for
reporting to the district government any repair needs of BRIGHT schools. To bolster these
tripartite agreements, and consistent with the Interagency Agreement, the BRIGHT project

1
 See Interagency Agreement executed between MCC and USAID, dated September 4, 2008, Annex A,
Sections Sec. 2.b.5(a) - (d).




                                                                                          15
implementation consortium is preparing a community school maintenance manual and
organizing training workshops on school maintenance for school directors, local government
officials, community leaders and parent and teacher association members. This training will
include hygiene and sanitation, basic maintenance of school infrastructure, and identification
and reporting of repair needs. As part of Burkina Faso’s ongoing decentralization efforts, the
management responsibility for primary schools has been transferred to the local district
governments. This transfer includes allocation of funds to the districts for the repair and
maintenance of schools that are under the jurisdiction of each district. Accordingly, MCC
believes that the concerns raised by the OIG will be addressed as a result of the tripartite
agreements, to be signed by the end of November. MCC believes such agreements will result
in more sustainable results than creating an action plan for the federal Government based in
Ouagadougou.

Recommendation 2: Work with USAID to revise indicators, targets, and baselines listed in
Appendix III to ensure more effective monitoring of the BRIGHT II schools project.

MCC concurs with OIG’s recommendation to revise the indicators and targets in Appendix
III of the report, in order to ensure more effective monitoring of the BRIGHT II schools
project. MCC staff will work with USAID and project implementers to revise this data by
July 2011.

Recommendation 3: Implement a policy for monitoring and evaluation when a U.S.
Government entity administers a compact program.

MCC agrees that overall, MCC should provide clarifications and guidance, through an
appropriate instrument, on the applicability of the M&E Policy when another United States
Government entity administers a compact program. In this instance, MCC believes that the
appropriate instrument to clarify this matter would be an amendment or letter agreement
supplementing the Interagency Agreement. That instrument could then be the basis for the
Vice President of the Department of Policy and Evaluation, working closely with USAID, to
develop, more broadly, subsidiary or clarifying guidance to the M&E Policy as it relates to
United States Government agencies as needed.

In addition to the responses to the above mentioned recommendations, MCC has noted the
following specific inaccuracies in the audit report:
• Pg. 2, first sentence underneath “Schools Project.” MCC believes the sentence “The
    Office of the Inspector General (OIG) found that MCC’s BRIGHT I schools project did
    not achieve its intended results” is somewhat confusing given that the second paragraphs
    establishes that in fact, BRIGHT I exceeded its project targets. MCC would suggest
    clarifying this sentence by stating, “The Office of the Inspector General (OIG) found that
    MCC’s BRIGHT I schools project met and exceeded its project targets. However, due to
    the fact that the BRIGHT I schools project only constructed classrooms for three grades,
    the BRIGHT I project alone will not be able to increase the Burkina Faso girls’ primary
    education completion rate.”
•   Pg. 4, first sentence under heading “Are the Millennium Challenge Corporation’s
    BRIGHT I and II schools projects…” MCC believes this sentence is confusing to readers,
    particularly due to the fact that in the second paragraph, the OIG rightly points out that
    the BRIGHT I schools project met and exceeded its own targets for success. MCC


                                                                                            16
    believes that the following sentence would more accurately capture the OIG’s concern;
    “The Office of Inspector General (OIG) found that the Millennium Challenge
    Corporation’s (MCC’s ) Burkinabe Response to Improve Girls’ Chances to Succeed
    (BRIGHT I) schools project, a threshold program, met and exceeded its internal targets
    for success. However, due to the fact that the BRIGHT I schools project is designed to
    only construct classrooms for three grades, the BRIGHT I project alone will not be able
    to increase the Burkina Faso girls’ primary education completion rate.”
•   Pg. 4, the report states “Yet the BRIGHT I project as designed could not contribute to the
    Government of Burkina Faso’s overall goal of increasing the girls’ primary completion
    rate because the project built primary schools with only enough classrooms for Grades 1–
    3 instead of constructing schools with six grades.” Given the nature of the Girls Primary
    Education Completion Rate indicator used by MCC, the project by itself could not raise
    the indicator score above the median in a two to three year period of time. The threshold
    program was just one part of the Government of Burkina Faso’s overall strategy, which
    included the government’s own efforts as well as projects being implemented by other
    donors.
•   Pg. 5, insert new paragraph at bottom, just above last paragraph beginning with
    “Sustainability of the BRIGHT schools…” Due to the explanation above regarding the
    Interagency Agreement between USAID and MCC, MCC suggests a brief paragraph here
    explaining that MCC had an agreement that USAID would provide training allowing
    communities to address small maintenance issues themselves and to bring more
    complicated repairs to the attention of the local education bureaus.

Thank you for the opportunity to provide our comments on the draft report.
Please contact Pat McDonald, MCC’s Compliance Officer, if you have further questions or
concerns.

Sincerely Yours,



/s/ Darius Teter
For Patrick C. Fine




                                                                                           17
                                                                                   APPENDIX III



BRIGHT II INDICATORS
REQUIRING REVISION
Table A. Indicators Not Clearly Defined
Indicators                                                              Definition
                                                                        Refer to MEBA
Percentage of girls/boys completing primary school                      definition.

Table B. Example of Indicators with no Annual Targets
Indicators                                                              Annual Targets
Percentage of girls/boys completing primary school                                       0
Percentage of girls/boys promoted to next grade                                          0
Percentage of girls/boys passing the annual CEP exam                                     0
The number of girls/boys graduating from BRIGHT 2 primary schools.                       0
Girls promotion rates to next grade in BRIGHT schools                                    0
Percentage of girls dropping out of school                                               0
Number of girls/boys enrolled in the BRIGHT Bisongos                                     0
Percentage of girls dropping out of bisongo program                                      0
Percentage of boys dropping out of bisongo program                                       0

Table C. End of Project Targets Unclear
                                                                        End of Project
Indicators                                                              Target               Total
Number of girls enrolled in the MCC/USAID-supported BRIGHT schools               19,800      29,700
Number of boys enrolled in the MCC/USAID-supported BRIGHT schools                 9,900
Number of students enrolled in the MCC/USAID-supported BRIGHT schools
(both girls and boys)                                                             39,600

Table D. Low Target
Indicator                                                               Target
Number of boys enrolled in the MCC/USAID-supported BRIGHT schools                  9,900




                                                                                                 18
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
